NO. 21-

In The

Supreme Court of the United States

In re Willie S. Smith

V J i JT1 Ltd

PETITION FOR WRIT OF HABEAS CORPUS
NON-CAPITAL CASE

FILED
MAY 2 5 2021
s u p R e meFcTq u pCrLn PqK

Willie S. Smith
P.I.N. A-312-990
Richland Correctional Inst.
1001 Olivesburg Road
Post Office Box 8107
Mansfield, Ohio 44901-8107
Petitioner pro se

i

NON-CAPITAL CASE

QUESTIONS PRESENTED

Mr. Smith’s habeas petition presents exceptional
circumstances that, by all accounts, appear to be a case of first
impression, and requires interpretation of a statutory mandate that
directly conflicts with this Court’s prior decisions defining
acquittals and the finality of a jury’s verdict.

The Questions Presented Are:

1. Whether transfer to the District Court for a hearing pursuant to
this Court’s original habeas jurisdiction is warranted in this
exceptional non-capital case where the petitioner submitted
unrefuted evidence that he was acquitted of every element of every
offence for which he stood trial, the lower federal court refused to
address his innocence in his first habeas petition, and no State of
Ohio or federal district court, or federal court of appeals has
addressed the issue thereafter?

2. When federal courts fail to address the not guilty verdicts that
are contained in the state record in petitioner’s first habeas petition,
does the Antiterrorism and Effective Death Penalty Act of 1996
(‘’AEDPA”) preclude a stand-alone innocence claim raised for the
first time in a successive petition based on the same evidence the
federal court failed to review in the first petition?

ii

PARTIES TO THE PROCEEDINGS BELOW

This petition stems from a Habeas Corpus proceeding in which
petitioner, Willie S. Smith was the movant before the United States
court of Appeals for the Sixth Circuit. Mr. Smith is a prisoner
sentenced to ten to twenty -five years, plus Life. And is in the
custody of Kenneth Black Warden of the Richland Correctional
institution.

iii

TABLE OF CONTENTS

QUESTIONS PRESENTED
PARTIES TO THE PROCEEDINGS BELOW

ii

TABLE OF AUTHORITIES

v

TABLE OF APPENDICES

viii

OPINION BELOW

1

STATEMENT OF JURISDICTION

1

RELEVANT CONSTITUTIONAL AND STATUTORY
PROVISIONS

1,2,3,

STATEMENT OF FACTS

3

REASONS FOR GRANTING THE WRIT

8

I.STATEMENT OF REASONS FOR NOT FILING IN THE DISTRICT
COURT
9
ll.THE EXCEPTIONAL CIRCUMSTANCES OF THIS CASE WARRANT
THE EXERCISE OF THIS COURT'S JURISDICTION
10
A. A JURY DETERMINATION OF NOT GUILTY OF EVERY ELEMENT
OF THE CHARGED OFFENSE IS RARE AND EXCEPTIONAL
10-11
B.THE LOWER FEDERAL COURT'S DENIED MR. SMITH ANY
MEANINGFUL AVENUE TO AVOID A MANIFEST INJUSTICE IN HIS
FIRST HABEAS PETITION
12
Ill.THE COURT OF APPEALS ERRED IN DENYING MR. SMITH'S
SECOND PETITION
13

iv

A. THE APPEALLATE COURT'S MISCARRIAGE OF JUSTICE
ANALYSIS IS INCONSISTENT WITH THIS COURT'S
MISCARRIAGE OF JUSTICE JURISPRUDENCE
14
B.
THE COURT OF APPEALS ERRED IN HOLDING THAT THE
MANIFEST INJUSTICE EXCEPTION REQUIRED A "HIGHER
LEVEL OF PROOF AND A DILIGENCE REQUIREMENT"^,16

IV.
MR. SMITH'S SECOND PETITION MEETS THE
REQUIREMENTS OF 28 U.S.C § 2254

16-21

V.
THE CONTINUED INCARCERATION OF MR. SMITH BASED
ON THE JURY ACQUITTAL RAISES SERIOUS
CONSTITUTIONAL ISSUES
22-29

CONCLUSION

30

V

TABLE OF AUTHORITIES

28 USC §2241

Passim 3

28 USC §2244

Passim 3

28 USC §2254

Passim 3

ABF FREIGHT SYSTEM, v. NLRB 510 U.S. 317

27

ATKINS v. VIRGINIA, v. 536 U.S.304,

23

BULLINGTON v. MO; 451 U.S.430

25

BURKS v. UNITED STATES, 437 U.S.l

11,25

CALDERON v. THOMPSON, 523 U.S.538,558

15

EVANS v. MICHIGAN, 568 U.S. 313

24,25

EX PARTE FAHEY, v. 332 U.S 258,

8

FELKER v. TURPIN, 518 U.S. 651

8

GRAHAM v. FLORIDA, 560 U.S.48
26

23-24-

GREEN v. FISHER, 132 S.Ct. 38, 44 (2011)

19

HARMELIN v. MICHIGAN, 501, U.S.957

23

HERRERA v. COLLINS, 506 U.S. 390

22-24

HOUSE v. BELL, 547 U.S. 518

14

vi

IN RE WINSHIP, 397 U.S. 358

19-26

KENNEDY v. LOUISIANNA, 554 U.S. 407

23

KUHLMAN v. WILSON, 477 U.S. 436

14

MCcLESKEY v. ZANT, 499 U.S. 467

14

McQUIGGIN v. PERKINS, 569 U.S. 383

14,17

SCHULP v. DELO, 513 U.S.298

14

SLACK V. McDANIEL, 526 U.S. 473

16

SOLEM v. HELM,463 U.S. 277

26

STATE v. SMITH, 154 OHIO St.3d. 1425

9

STATE v. SMITH, 1997 OHIO APP. LEXIS 4892

17

STATE v. SMITH, 1999 OHIO APP. LEXIS 1575

6

STATE v. SMITH,2018-WL-3599318

18-20

STEWART v. MARTINES-VILLAREAL,523 U.S.637

16

SULLIVAN v. LOUISIANNA, 508 U.S. 275, 277,278,279,-22
UNITED STATES v. BALL 163 U.S. 662

26

UNITED STATES v. MARTIN LINEN SUPPLY CO. 430 US.564
Passim”
i 5

UNITED STATES v. POWELL, 469 U.S. 57

11

WEEMS v. UNITED STATES,217 U.S. 349

23

WILLIAMS v. TAYLER, 529 U.S. 362,413

20

vii

CONGRESSIONAL HISTORY
H.R CONF. REP. 104- 518 (1996) U S C C A N 944

STATUTES OF State of Ohio
O.R.C §2903.01 (A)(B)
O.RC. §2929.04 (A)(7)
O.R.C §2941.14

VIII

JOINT APPENDIX

APPENDIX A: OCT 17, 2019 SIXTH CIRCUIT DECISION
APPENDIX B: 1995 SENTENCING JOURNAL ENTRY
APPENDIX C: 28 USCS §2241 (POWER TO GRANT THE WRIT)
APPENDIX D: 28 USCS §2254
APPENDIX E: 28 USCS §2244
APPENDIX F: THE SUPREME COURT OF OHIO DECLINES
JURISDICTION
APPENDIX
(2018)

G: COURT OF APPEALS EIGHTH DISTRICT OF OHIO

APPENDIX H: COURT OF COMMON PLEAS DECISION
APPENDIX

I: DOCKET OF FEDERAL PROCEEDINGS HISTORY

APPENDIX j: SIXTH CIRCUIT ORDER FEB 3,2021
APPENDIX K: SIXTH CIRCUIT MANDATE (DEC 5,2003)
APPENDIX

L: §2903.01 (A) (B) OHIO REVISED CODE

APPENDIX M: §2929.04 (A)(7) Ohio Revised Code
APPENDIX N: §2941.14 OHIO Revised Code
APPENDIX

O: USCS SUPREME COURT RULE 20

ix

APPENDIX

P: USCS14

APPENDIX

Q: USC 8

APPENDIX

R: USC 6

APPENDIX

S: USC 5

1

PETITION FOR WRIT OF HABEAS CORPUS

Petitioner Willie S. Smith respectfully requests that this
Court transfer for hearing and determination of his application for
habeas corpus to the District Court in accordance with its authority
under 28 U.S.C. § 2241(b).

OPINION BELOW

The opinion of the United States Court of Appeals for the
Sixth Circuit is cited as In re Smith, 2019 U.S App. LEXIS 31062
and is attached at Appendix A.

STATEMENT OF JURISDICTION
The Order of the Court of Appeals denying authorization to
file a successive petition was entered on October 17, 2019. This
Court’s jurisdiction is invoked pursuant to 28 U.S.C. § § 2241,
2254(a), 1651(a) and Article III of the United States Constitution.

RELEVANT CONSTITUTIONAL AND STATUTORY
PROVISIONS
The Fourteenth Amendment of the United States Constitution
states, in relevant part: “Nor shall any State deprive any person of
life, liberty, or property, without due process of law ...”
The Eighth Amendment of the United States Constitution states,
in relevant part: Nor cruel and unusual punishment inflicted.

2

The Sixth Amendment of the United States Constitution states,
in relevant part: In all criminal prosecutions, the accused shall
enjoy the right to a speedy and public trial, by an impartial jury.

The Fifth Amendment of the United States Constitution states, in
relevant part: nor shall any person be subject for the same offence
to be twice put in jeopardy of life or limb; nor shall be compelled
in any criminal case to be a witness against himself, nor be
deprived of life, liberty, or property, without due process of law.

3

28 U.S.C. §2241 (2021): Appendix
28 U.S.C. §2244 (2021): Appendix
28 U.S.C. §2254 (2021): Appendix

C
E
D

STATEMENT OF FACTS

From the time Mr. Smith was sentenced, Willie S. Smith has
challenged the validity of his convictions. Following direct review,
with the assistance of counsel, Mr. Smith filed numerous collateral
proceedings, These facts emerge from those filings.
On April 8,1995, information from an unknown source was given to
the Warrensville heights police department, in Cuyahoga County
Ohio, that a body was floating in a creek behind an apartment
complex on Dalebridge road.
Officer Raymond Thomas responding to the information, proceeded
to that location and found a male body with no identification.
Several hours later after hearing that her son, Reginald Gary Lewis,
(Reggie) had died, Mary Lewis contacted the Cuyahoga county
coroner’s office regarding her son who had been missing since
March 28,1995 As a result, Mary Lewis went to the coroner’s office
and identified her son’s body.
July 3,1995 defendant was arraigned, plea of Not guilty entered on
all indictments.

4

On June 5,1995 Mr. Smith was indicted on one count of kidnapping,
Case No.CR-323987 and on June 28, 1995 Mr. Smith was issued a
separate three count indictment Case No.CR-325283 in which he
was charged as follows: count one Aggravated Murder; count twoAggravated Murder; count three Having a weapon while under
Disability. Both Aggravated Murder charges contained firearm
specifications and also Felony Murder specifications
On August 21,1995 the trial court consolidated the two indictments
and renumbered the charges as follows: Count one -Kidnapping;
Count two -Aggravated Murder; Count three- Aggravated Murder;
and Count four -Having a weapon while under disability.
On October 6, 1995 the jury returned the verdict as follows: Guilty
on count one -Kidnapping; Not Guilty on Count two- Aggravated
Murder; Guilty on Count Three-Aggravated Murder; and Not Guilty
of- Having a weapon while under disability.
Significantly, the jury also stated the following: ”We find and
specify that the defendant Did not have a firearm on or about his
person, or under his control while committing the offense charged
in the indictment.
In addition the jury determined: In regards to specification One,
specification two: We the jury find defendant ”Not Guilty” of
committing this offense while he was committing, attempting to
commit or fleeing immediately after committing or attempting to
commit Kidnapping and defendant was the principal offender in the
Aggravated murder, or if not the principal offender, committed the
Aggravated murder with prior calculation or design.”
(Sentencing Journal Entry at Appendix B)

5

With respect to evidence introduced at trial, the state presented
evidence that Lewis died from two bullet wounds to the head and
that there were blunt force injuries to his head, and extremities.
The State of Ohio also established that Mr. Lewis was killed at the
home of William Marshall, the state’s key witness, and Mr. Smith’s
cousin. Mr. Marshall testified, that he had been shot in February of
1995, by an unknown assailant, which he described as an attempted
robbery, he also testified that rumor’s in the neighborhood were that
the shooter was Reggie, but that he was unsure who shot him.
Regarding the events on March 28, 1995, Marshall testified that he
left school early that day after being in a fight, and that he arrived
home, where he lived alone with his grandmother, at approximately
1:30 pm. He also testified that his grandmother was not home when
he arrived.
Marshall testified that after he arrived home Willie Smith and his
brother, Ashunte Smith, Marshall’s cousins, brought Lewis to his
house in a small white car, and said that Lewis was the individual
that shot Marshall.
Mr. Marshall also testified that when his cousins entered the house
they told Marshall to tie Lewis up, and that he got an extension cord
from upstairs, returned to the basement, but that his cousins tied
Lewis to the pole. Mr. Marshall also testified that he went back
upstairs to answer the phone and spoke to his grandmother, and
returned to the basement, and told his cousins that whatever they
were going to do they better do because grandmother was coming
home. Marshall then claimed his cousins told him to go upstairs, and
while he was upstairs he heard two shots, and when he looked
downstairs Lewis lay dead.

6

In 1998, Mr. Smith by and through counsel, filed a motion for a new
trial and a petition for post - conviction relief. Mr. Smith presented
the trial court with seven affidavits from various relatives and
friends that did not testify at trial, and one affidavit from Shenell
Owens, a hostile witness for the state who testified that she
witnessed Mr. Smith and his brother grab Mr. Lewis and force him
into a small white car.
The trial court denied both pleadings without a hearing, but in State
of Ohio v. Smith, 1999 Ohio App, Lexis 1575.The Ohio Eighth
Appellate District court reversed with instructions to hold an
evidentiary hearing.
Brother’s Clarence Brown and Rasheen Bledsoe testified at the
evidentiary hearing January 3, 2000, that both of these witnesses
offered statements to the Warrensville Heights Police Department,
after Willie Smith was arrested and before his trial commenced that
another suspect (Shawn Laney) who is also a relative of all
defendants in this case along with (Ronnie Johnson) who was an
additional suspect was last seen with the victim Gary Lewis before
his death.
Both witnesses at the hearing gave testimony that they were
receiving threating calls to their home from unknown sources telling
them both not to show up to the trial in 1995.
Kitt Marshall-Laster who is the aunt of all the suspects in this case
testified at the evidentiary hearing that William Marshall admitted
to her that he was the one that killed Lewis.

7

Shenell Owens, who was not related to anyone involved in the
crime, testified at trial to seeing Mr. Smith and his brother force
Lewis into a small white car. Ms. Owens testified at the hearing that
she lied at trial because Mr. Smith was rumored to be scheduled to
testify against her brother in an unrelated murder case.
Ms. Owens however recanted her recantation after being threatened
by the trial court with perjury charges and prison time. The sum of
the State’s case against Mr. Smith was the testimony of William
Marshall, and Ms. Owens. Assuming arguendo that Ms. Owens trial
testimony was believed by the jury, the fact remains that Ms. Owens
testimony does not place Mr. Smith at the scene of the Murder.

A.

The court of appeals decision

On October 17, 2019, a panel of the court of appeals denied
Mr. Smith permission to file a second habeas petition in
which he asserted a manifest injustice for being incarcerated
for a charge that he was acquitted of committing. The lower
court held that the judicially created exception to the
restrictions on second or successive habeas petitions did not
survive the enactment of the Antiterrorism
and Effective Death Penalty Act, (Appendix at A.)
Mr. Smith respectfully submits that as shown fully below
this case does not fit the narrow procedural confines
delineated by the ‘’AEDPA”. This case is however
precisely the type of occasion that warrants judicial
intervention from this Honorable Court.

8

REASONS FOR GRANTING THE WRIT

This Court’s power to grant an extraordinary writ is very
broad but reserved for exceptional cases in which ‘’appeal is
clearly inadequate’. Ex parte Fahey,332 U.S. 258 (1947).
Title 28 U.S.C. § 2244 (b)(3)(E) Prevents this Court from
reviewing the court of appeals’ order denying Mr. Smith
leave to file a second or successive habeas petition by appeal
or by writ of certiorari. The provision however has not
repealed this Court’s authority to entertain original habeas
petitions, Felker v. Turpin, 518 U.S. 651, 660 (1996), Nor
has it disallowed this Court from ‘’transferring the
application for hearing and determination” to the district
court pursuant to 28 U.S.C. §2241(b).

Rule ”20” of this court requires a petitioner seeking a writ
of habeas corpus to demonstrate that (1) adequate relief
cannot be obtained in any other form or any other court; (2)
‘’exceptional circumstances” warrant the exercise of this
power; and (3) the writ will be in aid of this Court’s appellate
jurisdiction.”
Further this Courts authority to grant relief is limited by 28
U.S.C. § 2244(b). See Felker, 518 U.S. at. 662-63. Mr.
Smith’s last hope for any court to recognize the significance
of the fact that he was acquitted by the jury of every Element
that the State of Ohio was required to prove lies with this
court. His case presents exceptional circumstances that
warrant the exercise of this court’s discretionary powers.

9

I.

STATEMENT OF REASONS FOR NOT FILING IN
THE DISTRICT COURT
As required by Rule 20.4 and U.S.C. §2241 and §2242,
Mr. Smith states that he has not applied to the district
court because the Circuit court prohibited such an
application, See : (Appendix A) Mr. Smith exhausted his
state remedies for his acquittal argument when the Ohio
Supreme court declined to accept jurisdiction to review
the denial of his Common Law motion to Correct a void
judgment. See: State of Ohio v. Smith 154 Ohio St.3d
1425 (Ohio 2018). (Appendix F)
Since Mr. Smith exhausted his remedies in the state
courts, and was denied permission by the Court of
Appeals to file a second Habeas petition, he also in
December of 2019 filed a Motion to Recall the mandate,
based on fraud upon the court by federal court officials,
and sought relief from judgment by filing a 60(b)(4)
Motion that there was a defect in the integrity of his
initial ”2002”Habeas §2254 proceeding. Both motions
were denied and again the ‘’AEDPA” was cited to bar
any form of relief.
The Sixth Circuit went as far as to state on page 3 of the
February 3, 2021 order See: (Appendix J) That No
Mandate was ever issued to recall in connection with this
case’5, when clearly from (Appendix I) Docket # 29 See:
also (Appendix K ) USCA Mandate of December
5,2003, that statement was a reckless disregard for the
truth, which is also endorsing fraud. Mr. Smith cannot
obtain relief in any form or from any other court.

10

II.

THE EXCEPTIONAL CIRCUMSTANCES OF
THIS CASE WARRANT THE EXERCISE OF THIS
COURT’S JURISDICTION

The Courts that have reviewed the issue of acquittal
raised by Mr.Smith refused to address the merits of the
claim based on procedural arguments that are in direct
contradiction of this Court’s jurisprudence.
Few- if any - cases where a defendant was acquitted of
every element of the charged offense has resulted in the
incarceration for that offense.

A. A JURY DETERMINATION OF NOT GUILTY OF
EVERY ELEMENT OF THE CHARGED OFFENSE IS
RARE AND EXCEPTIONAL
This court has consistently stated that: Our cases
have defined an acquittal to encompass any ruling
that the prosecution’s proof is insufficient to
establish criminal liability for an offense”.
Evans v. Michigan, 568 U.S. 318, 319.
A study of federal habeas case law has revealed no
case in which a jury issued a verdict of Guilty for an
Aggravated Murder charge, and a verdict of Not
guilty to each and every element of that same
Aggravated murder charge.

11

This court has consistently stated; that ‘’with few
exceptions, once the jury has heard the evidence and
the case has been submitted, the litigants must accept
the jury’s collective judgment” United States v.
Powell, 469 U.S. 57, at 67.
The fact that Mr. Smith was acquitted of each
element that the State of Ohio was required to prove
does not require consideration of newly discovered
documents. All of the facts related to the acquittal are
contained in the sentencing journal entry.(Appendix
B)
Pursuant to both Powell and Evans, once the jury
entered a verdict of ‘’NOT GUILTY” to every
element constituting the charge of Aggravated
murder, the litigants were required to accept the
jury’s collective judgment. Powell 469 U.S.at 67
Pursuant to Evans, c > An acquittal cannot be
disregarded at any stage of the proceedings. Evans,
568 U.S. at 318-319, citing Burks v. United Slates,
437 U.S. 1,10, and United States v. Martin Linen
Supply Co. .430 U.S. 564. 571.
The fact that the sentencing entry, (Appendix B)
shows a Not Guilty verdict to each element of the
charge of Aggravated murder for which Mr. Smith is
incarcerated, coupled with the fact that he was denied
review under 28 U.S.C §2244(b), establishes the
exceptional circumstances required to warrant the
exercise of this court’s jurisdiction.

12

B. THE LOWER FEDERAL COURTS DENIED MR.
SMITH ANY ‘’MEANINGFUL” AVENUE TO AVOID
A MANIFEST INJUSTICE” IN HIS FIRST HABEAS
PETITION
Only rarely — if ever- does a person find themselves
incarcerated for a crime that a jury acquitted them of
committing. It is even more rare that an acquittal that appears
on the face of the sentencing journal entry would slip
through the cracks of the federal habeas system and require
the petitioner to bring a stand- alone innocence claim in a
second habeas petition.
Ordinarily, there would be no reviewing process once the
jury issued a verdict of Not guilty, and a person in Mr.
Smith’s position would not be required to further establish
his innocence in a first or second habeas petition. The
District Court and Appellate Court continued to ignore the
manifest injustice in Mr. Smith’s second habeas petition
stating: this judicially created exception to the restrictions on
second or successive petitions did not survive the enactment
of the Antiterrorism and effective Death Penalty Act.
(Appendix A).

13

III.

The Court of Appeals erred in denying Mr. Smith’s
second petition
The court of appeals denied Mr. Smith permission to file a
second petition, specifically stating: Congress required
second-or successive habeas petitioners attempting to
benefit from the miscarriage of justice exception to meet a
higher level of proof (clear convincing evidence) and to
satisfy a diligence requirement that did not exist prior to the
AEDPA’S passage. (Appendix A.) 28 U.S.C. §2244(b).
Although this procedural requirement ‘’inform” this Court’s
consideration of original Habeas petitions, this court has not
decided whether it is bound by them.
See: Felker,518 U.S. at 663 (pretermitting the question of
whether the court is bound by §2244 (b)(2) finding the
provision “informs its decision”).
The purpose of §2244 (b)(2) that ‘’informs” this court’s
consideration of Mr. Smith original habeas petition are
twofold: Section §2244(b)(2)(B)(ii) requires that the claim
raised in a second petition ‘’impugn” the reliability of the
underlying conviction. Mr. Smith’s claim of innocence does
not require consideration of new facts or withheld evidence.
The jury specifically and unquestionably found Mr. Smith
‘’Not guilty” of every element of Aggravated murder.

14

A. THE APPELLATE COURT’S MISCARRIAGE OF
JUSTICE ANALYSIS IS INCONSISTENT WITH
THIS COURT’S MISCARRIAGE -OF
JUSTICE” JURISPRUDENCE.

This court has applied the "miscarriage of justice”
exception to overcome procedural default issues as well
as successive petition issues. Kuhlmann v. Wilson, All
U.S 436,454. See: also McCleskey v. Zant, 499 U.S. 467
at 494-495.
The appellant court cited McQuiggin v.Perkins, 569 U.S.
383 in support of their assertion that a miscarriage of
justice exception requires ‘’clear and convincing proof’
and a diligence requirement” that did not exist prior to
the AEDPA’S passage (Appendix A at 2).
Conversely, in McQuiggin, this court emphasized that
the miscarriage of justice exception is rooted in the
equitable discretion of habeas court- to see that federal
constitutional errors do not result in the incarceration of
an innocent person.133 S.Ct.at 1931-1932.
( 5

This case does not present the type of ‘’actual
innocence claim presented in Schlup v.Delo, 513 U.S.
298, or House v. Bell, 547 U.S. 518, in which new
evidence questioned the validity of the jury’s verdict.
Such proceedings reasonably require diligence and
substantial proof of innocence.
? 5

15

B. The Court of Appeals Erred in Holding that the
‘’Manifest injustice Exception” Required a ‘’Higher
Level of proof’, and ‘’A diligence Requirement”.

The court below came to a questionable and
counterintuitive conclusion that the AEDPA closes the
door to petitioners who were ‘’acquitted of the crimes”
for which they are incarcerated. By holding that an
acquittal is simply not enough, the court of appeals is
showing a complete disregard for the purpose of the
AEDPA’S judicially created exceptions to successive
petitions, the legislative history, or this Courts prior
construction of the statute.
This Court has specifically stated that, ‘’AEDPA’S
central concern [is] that the merits of concluded criminal
proceedings not be revisited in the absence of a strong
showing of actual innocence ”. Calderon v. Thompson,
523 U.S. 538,558 (1998) (emphasis added).
The house Conference report on AEDPA explained that
AEDPA ‘’limited [second petitions] to those petitions
that contained newly discovered evidence that would
seriously undermine the jury’s verdict”. See: H.R. Conf.
REP. 104-518, at 111 (1996), reprinted inU.S.C.C.A.N.
The senate legislative history shows §2244(b)(2)(B)(ii)
was intended to contain a ‘’safety valve” for innocence.
Here the court of appeals shut off the ‘’safety valve”
citing procedural anomalies that have no application to
Mr. Smith’s situation.

16

Specifically, Mr. Smith presented the lower court with
the sentencing journal entry showing that he was
acquitted of each element of the charge for which he is
incarcerated. The Same sentencing journal entry that was
presented to and considered by the lower federal court in
Mr. Smith’s first habeas petition.
Even in cases where the petitioner’s guilt was not in
question, this Court has resisted interpretations of §2244
that would produce troublesome results, See:*Stewart v.
Martinez-Villareal, 523 U.S. 637, 644 (1998) (holding
that a petition filed second in time was not second or
successive” as such a literal reading of §2244 would
lead to “’perverse” results).
Slack v. McDaniel, 529 U.S.473, 483 (2000) (finding
that a petition filed second in time is not a second or
successive petition” so as to protect that ‘’vital role”
that the writ of habeas corpus plays in protecting
constitutional rights”).
IV.

Mr. Smith’s second petition meets the requirements
of 28 U.S.C. §2254
Under AEDPA’S amendments to §2254 a federal court
may grant habeas relief if the state court’s decision was
‘’contrary to or involved an unreasonable application”
of clearly established federal law as determined by the
United States Supreme Court. 28 U.S.C §2254(d)(l), or
was based on an unreasonable determination of the facts
presented in the state proceedings. ”28 U.SC.
§2254(d)(2).

17

Moreover, under 28 U.SC. §2254(e)(l), factual
determination made by the State courts are presumed
correct unless rebutted by clear and convincing evidence.
Mr. Smith’s direct appeal was decided on November
6,1997. Wherein the Ohio appellate Court Affirmed his
conviction and sentence, Significantly, one issued raised
by appellate counsel concerned inconsistent verdicts in
which counsel argued that it was inconsistent for the jury
to find Mr. Smith guilty of Aggravated Murder and not
guilty of the corresponding firearm specification, See:
State of Ohio v. Smith, 1997 Ohio App. Lexis 4892.

Because the actual innocence in this case is based on a
jury verdict and not newly discovered evidence of
innocence, it is outside of the intended purposes of the
AEDPA’S procedural restrictions. More importantly,
applying the filing restrictions created by the enactment
of AEDPA, questions this court’s ‘’miscarriage of
justice analysis in McQuiggin, 133 S.Ct. at 1931-1932,
and this court’s definition of an acquittal, Evans,1

1 Procedural Due Process, Double Jeopardy
The United States Supreme Court's cases have defined an "acquittal" to
encompass any ruling that the prosecution’s proof is insufficient to establish
criminal liability for an offense. Thus an “acquittal” includes a ruling by a court
that the evidence is insufficient to convict, a factual finding that necessarily
establishes a criminal defendant’s lack of criminal culpability, and any other
ruling which relates to the ultimate question of guilt or innocence.

18

As set forth by the Sixth circuit in their October 17,2019
order, which is the subject of this petition: ‘In 2017,
Smith filed a Common Law motion in state court to
Correct a void judgment, arguing that the jury’s notguilty finding on the felony-murder specifications
negated an essential element of the aggravated murder
offense.(Appendix A at 1).
In denying Mr. Smith’s Common law motion the Ohio
appellate court stated: This court affirmed Smith’s
conviction, holding that ‘a finding upon a specification
cannot change the finding of guilt as to the principal
charge since specifications are considered only after and
in addition to, the finding of guilt upon the principal
charge. State v. Smith, 2018-WL-3599318 at 9.
With regards to 28 U.S.C. §2254(d)(2)’s unreasonable
determination of the facts, two ‘’facts” are at issue. The
first being the State courts description of Mr. Smith’s
argument. Specifically, Mr. Smith did not argue that the
not- guilty finding on the felony -murder specification
negated an essential element of the Aggravated Murder
offense. Mr. Smith argued then as he does now, that the
not-guilty finding on the felony murder specification
negated every element of the charge of aggravated
murder, thereby rendering that jury finding an acquittal.
Justice Stevens reasons: That the Constitution barred an
appeal from an acquittal”. And that a ‘’True” acquittal
is based upon the insufficiency of evidence to prove an
element of the offense. Martin Linen Supply Co; 430 U.S
at 578, 579.

19

Thus, Mr. Smith submits that the state courts reasoning, that
inconsistent verdicts on a firearm specification has the same
impact as a not guilty finding on every element of Aggravated
Murder, is an unreasonable determination of the facts under
28 U.S.C.§ 2254 (d)(2).
With respect to the facts presented to the state court, the
sentencing journal entry, (Appendix B), was submitted to the trial
court, the Ohio appellate court, and the federal district court. In
light of the jury's finding as depicted in (Appendix B) The state
courts "unreasonable determination of the facts" cannot be more
clear.
With respect to 28 U.S.C § 2254(d)(l)'s unreasonable application of
clearly established law, the finding is actually less complicated. For
over 50 years this court has held that it is fundamental principal of
constitutional law that no person may be convicted of a crime
absent proof beyond a reasonable doubt of every fact necessary to
constitute the crime charged. See: In re Winship,397 U.S. 358, 90
S.Ct.1068, 25 L. Ed. 2d. 364,368, 384, (1970) (emphasis added).
Clearly established federal law, for the purpose of § 2254(d)(1),
refers to rulings of the United States Supreme Court in place at the
time of the "last" state-court adjudication on the merits. Green v.
Fisher, 132 S.Ct. 38, 44 (2011).

20

A decision is contrary to clearly established federal law
if the state court arrives at a different conclusion opposite
to that reached by [the Supreme Court] on a question of
law or if the state decides a case differently than [the
Supreme Court] on a set of materially indistinguishable
facts. Williams v. Tayler, 529 U.S.362, 413(2000)
The last state courts opinion addressing Mr. Smith’s
acquittal was the Ohio Eighth Appellate district See:
State v. Smith,20\%-WL- 3599318 in which the appellate
court stated the following: ‘’Smith was found Guilty of
aggravated Murder, in violation of R.C. § 2903.01,
Unlawfully and purposely causing the death of another,
to Wit: Gary Reginald Lewis, while committing or
attempting to commit kidnapping.” Id. at ^[ 11.
In the same paragraph cited above the Ohio appellate
court stated the following: He [Mr. Smith] was found
‘’NOT GUILTY” of the corresponding felony murder
specification as follows: and the offense presented above
was committed while the offender was committing,
attempting to commit or fleeing immediately after
committing or attempting to commit kidnapping and
either was the principal offender in the commission of
the aggravated murder or, if not the principal offender,
committed the aggravated murder with prior calculation
and design. ”at U 11 See: also (Appendix G).
For the sake of clarity, Ohio has two versions of
Aggravated murder. The first version is Ohio revised
code § 2903.01(A), Which requires proof that the murder
was committed with ‘’prior calculation and design”.

21

The second version of Ohio’s Aggravated murder statute
is found in Ohio Revised code §2903.01(B), which
requires proof that the accused committed murder
‘’while committing, attempting to commit, or fleeing
immediately after committing or attempting to commit,
a felony” during the commission of the murder
(Appendix L)
The sentencing journal entry (Appendix B) clearly
shows that the jury found Mr. Smith Not guilty of being
the principal offender, not guilty of prior calculation and
design, and not guilty of kidnapping, attempting to
kidnap, or fleeing immediately after kidnapping, or
attempting to kidnap. (Appendix M & L)
Thus this Court’s holding in In re Winship could not have
been applied in a more unreasonable manner. The fact
that the state appellate court actually stated Mr. Smith
was found guilty of Aggravated Murder, and in the same
breath, acknowledges that the jury also found him not
guilty of the kidnapping element, simply defies logic.
The only fact that overshadows the Ohio appellate
court’s conclusion, is that every court, state and federal,
was made aware of the jury’s verdict as shown in
(Appendix B) and allowed Mr. Smith to remain
illegally incarcerated. Moreover, for any Court of law,
state or federal to allow Mr. Smith to remain
incarcerated based on the facts presented herein, goes
beyond this Court’s prior interpretation of Legislative
intent with respect to §2254(d) & (2).

22

V.

THE CONTINUED INCARCERATION OF MR.
SMITH BASED ON THE JURY’S ACQUITTAL
RAISES SERIOUS CONSTITUTIONAL ISSUES

Mr. Smith’s continued incarceration, after a jury found him not
guilty of every fact that formed the basis of the charged
offense, violates his federal constitutional rights to due process
and freedom from cruel and unusual punishment as guaranteed
by the Eighth and Fourteenth Amendments, and also the Fifth
Amendment requirement of proof beyond a reasonable doubt,
and the Sixth Amendment requirement of a jury verdict which
are interrelated. See: Sullivan v. Louisiana, 508 U.S.275, 277,
278. at HN 2 and 3.
In Herrera v. Collins, 506 U.S. 390, five Justices of this court
unequivocally found that the execution of an innocent person
violates the Constitution. See: 506 U.S. at 419. Nevertheless,
this Court in Herrera, only “’assume[d]”, without deciding that
the execution of an innocent man is unconstitutional. Id. at 417
(opinion of Rehnquist, C.J.)
In the years following this Court’s “’assumption” that the
execution of the innocent is unconstitutional, the basis for this
Court’s Eighth Amendment analysis has eroded. Significantly
the Herrera court based its Eighth amendment analysis on the
presumption that “’Constitutional provisions [] have the effect
of ensuring against the risk of convicting an innocent person”.
Id at 398-99.
While petitioner has found no Eighth Amendment, case
authority regarding the wrongful incarceration,

23

in a non- capital case, neither has petitioner found a case where,
as in this case, the jury acquitted the person of the crime for
which he was incarcerated. Notwithstanding, this court has held
that the Eighth Amendment, applicable to the states through the
fourteenth Amendment, provides that [ejxcessive bail shall not
be required, nor excessive punishment, well as cruel and unusual
punishment that may or may not be excessive.” Atkins v.
Virginia, 536 U.S. 304, 31, n.7.
Moreover, this court explained in Atkins, that Eighth
Amendment’s protection against excessive or cruel and unusual
punishment flows from the basic ‘precept of justice that
punishment for [a] crime should be graduated and proportioned
to [the] offense. See: also Kennedy v. Louisiana. 554 U.S 407,
at 419, citing Weems v. United States, 217 U.S.349, at 367. The
Atkins Court specifically stated that; whether this requirement
has been fulfilled is determined not by the standards that
prevailed when the Eighth Amendment was adopted in 1791, but
the norms that ‘currently prevail.” 536 U.S. at 311.
In Graham v. Florida, 560 U.S. 48, this Court went as far as to
state: Protection against disproportionate punishment is the
central substantive guarantee of the Eighth Amendment, and
goes far beyond the manner of determining a defendant’s
sentence.” Id. at 59 citing Weems, supra, 2' 17 U.S. at 367; See:
also Harmelin v. Michigan, 501 U.S. 957, 997-998.
The above cited case notwithstanding, public consensus now
shows that, in some cases, constitutional protections are simply
insufficient to protect the innocent from an erroneous capital
conviction2

2 SEE: www.innocenceproject.org/know.

24

Since Herrera was decided, this country has become more than
a little skeptical of the infallibility of our criminal justice system.
Such skepticism is justified in the wake of the number of
convictions being overturned by new DNA technology; faulty
eyewitness identification, the use of false testimony from co­
defendants. To that point, public skepticism is completely
justified when the state trial court is given a free pass for
imposing a sentence of life for crimes that the jury acquitted the
defendant of committing.

The fact that petitioner is currently incarcerated as a result of a
trial in which he was acquitted by a jury of every element of
every crime for which he stood trial supports that skepticism.
The fact that the lower courts refused to review Mr. Smith’s
acquittal, and based that decision on the current interpretation of
AEDPA’S evolving statutory changes, raises serious and
growing concerns about how far the Constitutional protections
on which this country was founded have eroded.
In this case Mr. Smith has been unable to obtain relief from
being incarcerated for a crime a jury acquitted him of
committing, based on the evolving interpretation of the changes
to 28 U.S.C. §2244(b) following the enactment of the AEDPA.
Those evolving changes however have allowed the State of Ohio
courts and the lower federal courts to completely disregard this
Court’s clearly established case authority defining exactly what
constitutes an acquittal.
Specifically, in Evans v. Michigan, 568 U.S. 318, this court
stated: Our cases have defined an acquittal to encompass any
ruling that the prosecutions proof is insufficient to establish
criminal liability for an offense. Id at 318- 319.

25

Because (Appendix B) Shows that the jury found insufficient
proof for ‘’Every element” of the offense for which Mr. Smith
continues to be incarcerated, every aspect of the Sixth
Amendment’s jury trial Guarantee has been rendered
meaningless-along with this Court’s holding in In re Winship,
supra; Evans v. Michigan, supra; and every other case in which
this court defined exactly what constitutes an acquittal, and/or
finality of a jury’s verdict.
In Bullington v. Mo., 451 U.S. 430, This court stated: ‘’A
defendant may not be retried if he obtains a reversal on the
grounds that the evidence was insufficient to convict, Id. at 442
citing Burks v. United States, 437 U.S. 1 (1978). While
Bullington deals with double jeopardy issues, the reasoning is
relevant here. Specifically:’[Reversal] for trial error, as
distinguished from evidentiary insufficiency, does not constitute
a decision to the effect that the government has failed to prove
its case. The same cannot be said when a defendant’s case has
been overturned due to a failure of proof at trial. Id. at 443, citing
Burks, at 15-16.
Mr. Smith is not asking this Court to review a claim of
insufficient evidence, nor is he asking this court to review any
issues of trial error. To be clear, the trial was conducted, it
concluded, and the jury issued its verdict as set forth in
(Appendix B). That verdict shows that the state failed to prove
any element of the charged offense as required by In re Wins hip.

26

What Mr. Smith is asking this Court to do is give meaning to that
jury verdict as the United States Constitution requires. And to place
Mr. Smith in the position that the jury verdict mandates.

“As to the defendant who had been acquitted by the verdict duly
returned and received, the court could take no other action than to
order his discharge. The verdict of acquittal was final, and could not
be reviewed, on error or otherwise, without putting him twice in
jeopardy, and thereby violating the Constitution. " United States v.
Ball, 163 U.S. 662, 671, atHN4.
With respect to cruel and unusual, this Court has held that; [t]he
Eighth Amendment is not limited to capital punishment, but applies
to all penalties.” See: McCleskey v.Kemp, 481 U.S.279, at
293,citing Solem v.Helm ,463 U.S. 277, at 289-90. While McCleskey
deals with the use of irrelevant factors in determining a sentence, the
McCleskey Court was clear when stating that: ‘’arbitrary and
capricious punishment is the touchstone under the Eighth
Amendment.” Id. Moreover this Court has been clear. The Eighth
Amendment ‘’protection against [all forms of] disproportionate
punishment, is the central substantive guarantee of the Eighth
Amendment...Graham v. Florida, supra.
As applied here, Mr. Smith maintained his innocence throughout his
incarceration. However, the issue here is that he has been
incarcerated for over twenty- five years (25) years for a crime that
the jury declared was lacking sufficient evidence. It is Mr. Smith’s
position that being sentenced to any term of imprisonment in spite
of the jury’s decision, constitutes the very type of ‘’arbitrary and
capricious’ punishment that was denounced in McCleskey, supra.

27

Mr. Smith’s situation is rooted in an even more basic principal
which Justice Kennedy stated best: ‘’Our laws must not become
so caught up in procedural niceties that it fails to sort out simple
instances of right and wrong and give some redress for the
latter’.’ ABF Freight System v. NLRB, 510 U.S .317, 325.
(emphasis added). Those ‘’procedural niceties” of which Justice
Kennedy spoke, has manifested in this case in point that they have
become the sole reason for refusing to address the Eighth and
Fourteenth Amendment violations that are exhibited in this case.
With respect to the Eighth Amendment, there can be no doubt that
Mr. Smith has suffered and continues to suffer a cruel and unusual
punishment. The mere fact that Petitioner can find no other example
of a defendant being sentenced to prison after a jury found them not
guilty of every element of the charged offense speaks volumes.
This is a fact bound case, and the facts are plain on the face of the
record. Those facts, simply stated are; Mr. Smith relied on his trial
counsel, and numerous other retained counsel, to advocate on his
behalf. After the jury verdict was read into the record, trial counsel
stood silent while the trial court imposed sentence under the color
of law. And, the rest of retained counsel performed with equal
enthusiasm, providing Mr. Smith with the same quality of
assistance. Each and every attorney retained to advocate on Mr.
Smith’s behalf failed to recognize and /or address the clear and
unambiguous verdicts depicted in (Appendix B).
Adding insult to injury, in his initial appeal in the state Court’s and
his initial Habeas petition, each attorney raised an issues of
inconsistent verdicts. That argument was however, based on the jury
finding Mr. Smith not guilty of having a weapon while under
disability as charged in count four of the indictment.

28

That argument and for that matter the jury verdict states that Mr.
Smith did not have a firearm on or about his person, during the time
he allegedly committed the murder in question- a murder where the
victim died from two bullet wounds in the head, and for which the
jury determined lacked any evidence of the required elements
charged in the felony murder specifications. (Appendix B).
Martin Linen Supply Co.’430 U.S 564, Justice Stevens, in a
concurring opinion defined an acquittal in the following manner: [a]
true acquittal is based upon the insufficiency of evidence to prove
an element of the offense, 430 U.S. at 578-579 (emphasis added).
Over twenty -five years ago Mr. Smith exercised his right to be
judged by a jury of his peers. Mr. Smith sought and received justice
when the jury found him ‘ ’NOT GUILTY’ ’ of every element of the
offense for which he stood trial. That justice however was taken
from him when the trial court imposed a sentence in complete
disregard for the jury’s verdict and the United States Constitution.
Mr. Smith has entered the hall of justice on numerous occasions, but
found no justice. He now seeks justice from this Honorable Court.
The jury trial under our Constitution is supposed to be the
cornerstone of criminal adjudication. The jury verdict finding of
“NOT GUILTY” of any of the elements that form the basis of the
charged offense, was a determination that the evidence was legally
insufficient,
committing
or
attempting
to
commit
contemporaneously the offense of kidnapping and prior calculation
and design was the requirement the State of Ohio was required to
prove beyond a reasonable doubt. The sentencing journal entry
shows the theory and charges offered to the jury were rejected.
(Appendix L & M & N & B).

29

The fact that Mr. Smith is incarcerated on a sentencing journal
entry, that exonerates him of all criminal liability goes beyond the
violations of the Fifth, Sixth, Eighth, and Fourteenth Amendments,
it is simply wrong. For that reason, Mr. Smith is asking this Court
to recognize that there are extraordinary circumstances in this case
and to right the wrong the State of Ohio committed in State of
Ohio v. Willie S. Smith, case No.CR-323987 and CR-325283.

30

CONCLUSION
The petition for writ of habeas corpus should be transferred to the
district court with instructions consistent with the facts set forth
herein, and any other relief this Honorable Court deems appropriate,
in this extraordinary situation.

Respectfully submitted,

Willie S. Smith
P.I.N. A312-990
Richland Correctional Inst.
1001 Olivesburg Road
P.O. Box 8107
Mansfield, Ohio 44901-8107
Petitioner pro se

